<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATION OF DAVID J. GLAWE FOR UNDER SECRETARY FOR INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 115-85]
[From the U.S. Government Publishing Office]










                                                         S. Hrg. 115-85

                OPEN HEARING TO CONSIDER THE NOMINATION
                      OF DAVID J. GLAWE FOR UNDER
                SECRETARY FOR INTELLIGENCE AND ANALYSIS,
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 28, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-126 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                                CONTENTS

                              ----------                              

                             JUNE 28, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, U.S. Senator from North Carolina...     1
Warner, Hon. Mark R., Vice Chairman, U.S. Senator from Virginia..     2

                               WITNESSES

Hon. Chuck Grassley, U.S. Senator from Iowa......................     3
David J. Glawe, Nominee for Under Secretary for Intelligence and 
  Analysis, Department of Homeland Security......................     4
    Prepared Statement...........................................     7

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    22
Prehearing Questions and Responses...............................    34
Questions for the Record.........................................    60
 
                      OPEN HEARING TO CONSIDER THE
                      NOMINATION OF DAVID J. GLAWE
                          FOR UNDER SECRETARY
                     FOR INTELLIGENCE AND ANALYSIS,
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 8:35 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr (presiding), 
Warner, Cornyn, Manchin, and Harris.

OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order.
    I'd like to welcome our witness today, David Glawe, 
President Trump's nominee to be the next Under Secretary for 
Intelligence and Analysis of the Department of Homeland 
Security. David, congratulations on your nomination.
    I'd also like to take a moment to recognize the sizable 
family contingent you have behind you today, and thank your 
husband Perry for his unwavering support. I think it's also 
important to pay tribute and thanks--thank your family for its 
honorable government service. Perry's a Supervisory Special 
Agent at the FBI. Your father Jim Glawe served in the Korean 
War. Your brother-in-law Gerardo Salinas served in Desert Storm 
and your sister Dr. Jane Glawe works at the V.A. I thank all of 
you for your service to your country and your dedication and 
selfless service.
    Our goal in conducting this hearing is to enable the 
Committee to consider Mr. Glawe's qualifications and to allow 
for a thoughtful deliberation by our members. He's already 
provided substantive written responses to more than 80 
questions presented by the Committee and its members. Today, of 
course, members will be able to ask additional questions of the 
nominee. David, let me just warn you: When you see nobody 
beside Mark and I, this is a good thing for a nominee.
    [Laughter.]
    David comes to us with more than 24 years of national 
security and law enforcement experience. He began his career as 
a Houston police officer, before serving as a Federal agent 
with the U.S. Postal Inspection Service and as a Special Agent 
with the FBI. In 2012, Mr. Glawe was named the Deputy National 
Intelligence Manager for Threat and Finance and Transnational 
Organized Crime, before serving as the Chief Intelligence 
Officer for the United States Customs and Border Protection 
Office of Intelligence.
    Mr. Glawe is currently supporting the National Security 
Council as a Special Assistant to the President and Senior 
Director for Homeland Security.
    David, you've been asked to lead the Department of Homeland 
Security's Intelligence and Analysis component at a time when 
we are facing complex, evolving, and continuous threats to the 
homeland. The intelligence community is tracing threats from 
State and non-State actors to our cyber and critical 
infrastructure, and we continue to debate the scope and scale 
of our U.S. intelligence collection and legal authorities. I 
expect you will be a forceful advocate for the intelligence 
community in those discussions, while maintaining a steadfast 
respect for the rule of law.
    As I mentioned to prior nominees before this Committee, I 
can assure you that the Senate Intelligence Committee will 
continue to faithfully follow its charter and conduct vigorous 
and real-time oversight over every intelligence community 
entity, its operations, and its activities. We'll ask difficult 
and probing questions of you and your staff, and we expect 
honest, complete, and timely responses.
    Your law enforcement and intelligence experience prepare 
you well to support DHS and I'm hopeful that you will look at 
the Department with a fresh set of eyes and a new perspective 
as you chart its course moving forward. I look forward to 
supporting your nomination and ensuring consideration without 
delay. I want to thank you again for being here, for your years 
of service to your country, and I look forward to your 
testimony.
    I now recognize the Vice Chairman for any comments he might 
have.

  OPENING STATEMENT OF HON. MARK R. WARNER, U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman.
    Welcome, Mr. Glawe. And let me say I think this is the 
earliest Intelligence Committee meeting I've ever attended, and 
it shows my commitment to your appearance and the questions I 
have for you that--because, unlike the Chairman who only lives 
close, I actually live back in my home State of Virginia, and 
when I was--I can assure you, when I was governor there was a 
lot less traffic.
    So, congratulations on your nomination as the Head of the 
Office of Intelligence and Analysis. This position sits at a 
critical juncture between the analytic work of the intelligence 
community and the information-sharing role of the Department of 
Homeland Security. If confirmed, your job will be to ensure 
that the critical pieces of information are delivered 
immediately throughout the Department, as well as to your 
partners at Federal, State, local, and tribal department and 
agencies that need it.
    I believe that you have an understanding of this need, 
given your background in law enforcement and the intelligence 
community. I also appreciate the support you have received from 
my friend, former ODNI Jim Clapper, and from law enforcement 
organizations representing the Nation's chiefs of police, 
county sheriff's and narcotics officers.
    But let's be clear. DHS INA requires a strong leader. While 
the organization's mission is defined, it continues to evolve 
and mature since the creation of DHS over a decade ago. I 
remain concerned about the level of sharing with law 
enforcement, the large contractor workforce, and the whole 
fusion center concept. We have a fusion center in Virginia. 
Conceptually it makes sense. I'm not sure it's been implemented 
in the right way and would love to again have your fresh set of 
eyes look at this.
    The truth is this job has never been easy and it's not 
going to be easy now going forward. If you are confirmed, I 
will also expect your full cooperation with this Committee's 
bipartisan investigation into Russia's cyber attacks and 
interference in our 2016 presidential election and the concerns 
about future meddling with our election and voting systems.
    I've asked DHS to share with this Committee, even if we 
cannot reveal them publicly, the names of the 21 states that 
the Department testified last week were attacked by Russian 
hackers. I've written to, and spoken with, Secretary Kelly 
about this matter and, as the oversight Committee for all 
intelligence issues, this Committee is entitled to have that 
information.
    I want to thank the Chairman because this week the Chairman 
and I sent a letter to all relevant State election officials 
asking that this information be made public. As I said last 
week, I don't see how Americans are made safer when they do not 
know which State election systems the Russians potentially 
attacked. And I particularly feel this way since my home State 
of Virginia has major State elections this year.
    Again, thank you for appearing before the Committee and I 
look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman. I can attest to 
the fact this is the earliest he has ever been here.
    [Laughter.]
    I'd like to now recognize the Chairman of the Senate 
Judiciary Committee to introduce our nominee, Senator Chuck 
Grassley. Senator Grassley, the floor is yours.

    STATEMENT OF HON. CHUCK GRASSLEY, U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you, Senator Burr and Ranking 
Member Warner.
    Before I read a three or four minute statement, I'd like to 
say that I'm proud to be here to introduce to the Committee a 
person whose family and he has deep roots in Iowa, and glad to 
be here. I think if I could probably give one sentence, which 
would repeat something you said as you talked about him, 
because I'll be repetitive of some of the things you said, but 
you talked about his honorable service within government and 
his public service, well-qualified to take this position.
    So I would emphasize that as I say that I'm proud to 
recognize David Glawe as the nominee for Under Secretary for 
Intelligence and Analysis at DHS. He is a dedicated public 
servant with over 20 years of national security and law 
enforcement experience. He currently serves on the National 
Security Council as Special Assistant to the President and 
Senior Director for Homeland Security.
    Prior to this, the nominee served as Chief Intelligence 
Officer for the U.S. Customs and Border Protection. Mr. Glawe 
is a former police officer and Federal agent with both the U.S. 
Postal Inspection Service and the FBI. In 2007 he served in 
Iraq and Africa on a joint FBI deployment with the Department 
of Defense. Following this tour, he was a senior adviser at the 
National Counterterrorism Center.
    In 2012, the nominee was named Deputy National Intelligence 
Manager for Threat, Finance, and Transnational Organized Crime, 
where he oversaw and integrated the intelligence community's 
data collections and analysis. In 2014, he began serving as 
National Security Council--on that Council, as a senior 
intelligence official, responsible for implementing the 
President's strategy on transnational organized crime. In 2015, 
Mr. Glawe was awarded the National Intelligence Superior 
Service Medal for his extraordinary contribution to the U.S. 
intelligence community and our Nation's security.
    The nominee is an Iowa native, as I've said, still has 
family in Iowa. He's a graduate of my alma mater, the 
University of Northern Iowa, and also a graduate of Harvard 
University's JFK School of Government. He got started in law 
enforcement and advanced his impressive career with 
characteristically outstanding Iowa work ethic.
    He shared with me how much these roots mean to him and I 
appreciate his commitment to putting them to work in this new 
position for our Nation, as he has several positions in the 
past. Mr. Glawe's mother, Nancy, is someone who I've crossed 
paths with for a long time in Iowa as well, I'm proud to say. 
And I know she's glad to be here with the rest of her family 
and his friends today to celebrate with him and to support him 
through this process.
    Thank you for holding this hearing and I urge you to 
support his nomination to fill this very important post. Thank 
you.
    Chairman Burr. Chairman Grassley, thank you for that very 
thorough introduction.
    And before, David, I ask you to stand and be sworn in, I 
want to recognize your mother, Nancy. I didn't recognize her 
earlier when I recognized your dad. Also, I want to recognize 
Wyatt, even though he left the room, and your daughter Alexis, 
who is just an absolute doll.
    If you will, raise your right hand. Do you solemnly swear 
to tell the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Glawe. Yes, I do.

 TESTIMONY OF DAVID J. GLAWE, NOMINATED TO BE UNDER SECRETARY 
 FOR INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Chairman Burr. Please be seated. David, you're now sworn in 
and before we move to your statement I'd like to ask you five 
standard questions that the Committee poses to each nominee who 
appears before us. They just require a simple yes or no answer, 
for the record.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Mr. Glawe. Yes.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the Committee and designated 
staff, when invited?
    Mr. Glawe. Yes.
    Chairman Burr. Do you agree to provide documents or any 
other material requested by the Committee in order for us to 
carry out its--our oversight and legislative responsibilities?
    Mr. Glawe. Yes.
    Chairman Burr. Will you both ensure that your office and 
your staff provide such materials to the Committee when 
requested?
    Mr. Glawe. Yes.
    Chairman Burr. Do you agree to inform and fully brief to 
the fullest extent possible all members of the Committee of 
relevant intelligence activities, rather than only the Chair 
and the Vice Chairman?
    Mr. Glawe. Yes.
    Chairman Burr. Thank you very much. We'll now proceed, 
David, to your opening statement. The floor is yours.
    Mr. Glawe. Thank you, Senator.
    Chairman Burr, Vice Chairman Warner, members of the 
Committee: Thank you for the opportunity to appear before you 
today as the President's nominee for Under Secretary for 
Intelligence and Analysis at the Department of Homeland 
Security. I'm honored to have been nominated by President Trump 
and I'm humbled to receive the support by Secretary Kelly, 
Deputy Secretary Duke, and Director of National Intelligence 
Coats.
    Before we begin, I'd like to thank Senator Grassley. Born 
and raised in the State of Iowa, I've learned at an early age 
about the importance of civic duty and serving your community. 
I've never dreamed that one day I would have the opportunity to 
meet and get to know an Iowa legend, a true Iowa legend. Thank 
you.
    I want to thank again Senator Grassley for the heartfelt 
introduction and nearly 60 years of service to the country and 
the people of Iowa.
    Next, I'd like to take a moment to recognize my family. I'm 
grateful for their support and sacrifice that allowed me this 
opportunity. With us today are the bedrocks of my life, my 20-
year partner and husband, Perry Goerish, an FBI Supervisory 
Special Agent at the Washington Field Office, and our two 
wonderful children, Alexis and Wyatt. I think Wyatt had to 
leave here. Also here is my father, Jim Glawe, who's an Army 
veteran drafted for the Korean War; my mother, Nancy Glawe, a 
retired kindergarten teacher, both from Davenport, Iowa; my 
sister, Dr. Jane Glawe, who works for Veterans Affairs Medical 
Center; and her husband, Gerardo Salinas, a Desert Storm 
veteran and also worked for the Veterans Affair in the 
Davenport office; my mother-in-law Beverly Goerish, a lifelong 
volunteer in her community in Kiester, Minnesota.
    And I want to recognize my deceased father-in-law Roger 
Goerish who retired as a high school teacher and athletic 
coach, who is here with us in spirit. I would also like to 
thank my family and friends--or my friends and coworkers who 
have supported me throughout my life. I would not have this 
opportunity without them.
    The mission statement of DHS is clear and direct. With 
honor and integrity, we will safeguard the American people, our 
homeland, and our values. DHS faces a complex and evolving 
threat environment and must work across the Federal Government 
in concert with our State, local, tribal, territorial, and 
private sector partners.
    I have over 24 years in law enforcement and intelligence 
experience, and if confirmed, I will apply those knowledge and 
lessons learned to drive intelligence and operational 
integration and share information, deliver unique analysis, and 
identify vulnerabilities, position resources, and ultimately 
mitigate threats.
    I&A has one of the broadest customer bases in the 
intelligence community. In meeting the varied demands of the 
challenge, if confirmed, I intend to focus I&A's analytic 
capacity on areas where they are positioned to add value, areas 
like trade, travel, cyber, borders, marine, and aviation 
security.
    I&A's greatest strength, without question, is its people. 
If confirmed, it will be my honor to lead the Homeland 
Intelligence professionals at I&A as we endeavor to implement 
Secretary Kelly's vision by meeting the needs of the primary 
customers, integrating intelligence and operations, and making 
I&A a diverse, mission-focused and productive environment for 
the workforce.
    In closing, I'd like to take a moment to recognize the 
important role Congress plays in the success of I&A. If 
confirmed, I pledge to enable the Committee to fill that role 
by keeping you fully informed and transparent on I&A's 
activities and developments.
    Mr. Chairman, I will stop there and submit the remainder of 
my comments for the record. Thank you again for the opportunity 
to appear before you today, and I look forward answering 
questions.
    [The prepared statement of Mr. Glawe follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Burr. David, thank you very much. And once again, 
I thank all of your family members for their tremendous service 
to the country and, more importantly, to the security of this 
country.
    With that, I'm going to turn to the Vice Chairman to start 
with questions.
    Vice Chairman Warner. Mr. Glawe, let me also recognize your 
family, very impressive. And I know they've got to be all very, 
very proud of you.
    I want to start with a couple questions in relation to our 
hearing last week and just kind of get your sense on this. I 
want to make--in addition to the questions the Chairman asked, 
will you commit as well to working with this Committee as we go 
forward on our ongoing Russian investigation, making sure that 
we get as much access as possible, making yourself available, 
necessary materials, intelligence reports, cables, products and 
other materials, and make sure those are, if requested, are 
provided to this Committee as quickly as possible?
    Mr. Glawe. Absolutely.
    Vice Chairman Warner. Mr. Glawe, one of things that came 
away last week was a real concern--and again, while not 
directly related, I'd just like to your view. We had 
representatives from DHS here. They had indicated 21 states had 
been subject to at least some level of Russian incursion. But 
it became evident through the testimony that in many cases the 
only contact that was made with those states may not have even 
been to the top election official, the Secretary of State or 
other election official. It might have just been to the vendor 
who might've been having the voter registration role.
    I think the Chairman and I both feel that we are not made 
safer by keeping that information private. We understand that 
DHS views the states have a collaborative relationship with the 
states and want to maintain that collaborative relationship, 
but they have, in effect, viewed the states as victims, and 
consequently almost feel like it's the obligation of the State 
to come forward.
    But we had the top election officials from Indiana and from 
Wisconsin here. Neither one of them knew whether their states 
had been attacked. We had the Illinois State election official 
here who had clearly indicated he was the victim of an attack, 
but until the testimony, the previous testimony of DHS, had not 
realized, had never been told by DHS that it was actually 
Russia who was behind the attack into the Illinois system.
    What I'd like you to do is just commit to work with us as 
we try to sort through this, recognizing that there's no effort 
here to relitigate 2016 or to embarrass any State, but we've 
got to make sure that the states that were the subject of 
attacks are prepared, so that that information can filter down 
to local election officials so that they can all take the 
necessary precautions.
    Do you want to comment on that? Any thoughts you might have 
on how we might be able to address this problem?
    Mr. Glawe. Sure. Senator, thank you for the question and I 
appreciate the opportunity to discuss that. I did watch most of 
the testimony last week as well. I share your concerns 
regarding the states and the Russian intrusion into the State 
election systems. And I also understand the challenges with 
sharing that information regarding the individual states' 
vulnerabilities.
    I am committed to work with you and to be completely 
transparent with that. And I understand the need to understand 
who's been hacked or that the intrusion occurred and the unique 
vulnerabilities to each State, which may be different, and 
working through those challenges.
    And I concur with you completely. The solutions aren't 
going to be easy and the problem is increasing. And I fully 
commit, if confirmed, to work with you, sir.
    Vice Chairman Warner. And I would hope that you would be 
willing to share with us, even if it's on a confidential basis, 
this Committee, so that we can, you know, again figure out a 
way to sort through to make sure that we're better prepared.
    Mr. Glawe. Absolutely, Senator.
    Vice Chairman Warner. All right. I'm going to hold you to 
that, because I look forward to working with you.
    I'm down to the last minute. Let me just ask you this. One 
of the things, as I mentioned in my opening statement, the 
concept of the fusion center makes a great deal of sense. I do 
wonder at times if there's not duplication and just wonder 
whether you have--you know, we're many years in now to this 
concept. Is it working the right way? And since you're at the 
nub of this kind of intelligence and analysis, what would you 
do to improve this concept? Or do you feel like it's working?
    Mr. Glawe. Senator, again thank you for the question. I 
appreciate the opportunity to talk about that. I was actually 
on the Joint Terrorism Task Force in Richmond, where one of the 
first fusions centers was stood up in Virginia. So I'm very 
familiar with it and the challenges. And coming from the State 
and local perspective, I also have a unique posture of I 
understand what the needs are of the State, State 
municipalities, as well.
    If confirmed, I think I'll need an opportunity to wrap my 
arms around a little bit better on the business structure they 
have. Each State operates differently, and that's been a 
challenge. I'm committed to work with the Committee and 
yourself on those challenges and to have a thorough assessment.
    What I can say is when meeting with numerous of the 
organizations that graciously supported me and the chiefs and 
the State law enforcement, we see the need for it. We need a 
method to share information. I think without question there can 
be improvements in that. And I know Under Secretary Taylor, my 
predecessor if confirmed, was working in that direction and I'm 
obligated--I'm obligated and I'm committed to do that as well.
    Vice Chairman Warner. Yes, I don't have a--I don't have a 
set of recommendations. I do think the whole concept, though, 
needs a fresh look. And I look forward to working with you on 
that.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Congratulations Mr. Glawe. And anything's--Chairman 
Grassley, anyone he supports usually guarantees my support. So 
I look forward to your service, continued service to the 
country.
    I do have just a broad question about cybersecurity. During 
the debates we in Congress have had about cybersecurity, we've 
been unable to overcome the silos that Congress itself has 
built when it comes to jurisdiction over this issue. And the 
concerns we've had about the organization of the Department of 
Homeland Security since 9/11, and the challenges it's had just 
culturally dealing with so many different disparate agencies 
now under the umbrella of DHS.
    But I'd be interested in your views about the shortcomings 
and maybe the opportunities that we have to deal with the cyber 
threat because it seems to me like we are doing a poor job as 
an all-of-government approach.
    Mr. Glawe. Senator, thank you for the question. And also 
thank you, thank you for meeting with me privately and going 
over some these issues. I think it's a tremendous opportunity 
in the Department to have an integrated business enterprise 
towards this. The illicit pathways of the cyber threat know no 
boundaries and know no borders. Transnational criminal 
organizations, terrorist organizations, foreign intelligence 
organizations, and non-State actors threaten our cyber and 
threaten the critical infrastructure.
    I have had some initial briefings on our cyber posture 
within DHS. If confirmed, I would need to unpack that business 
process we have in place. But what I can commit, Senator, if 
confirmed, is I will bring a sense of urgency, because that's 
the whole world I came from. I've served the public, I've 
served the community, with a sense where you didn't go home at 
the end of the night until the threats were mitigated. I view 
cyber in very much that same lane.
    I think it's--not within just DHS, within the U.S. 
Government, we can say we have room for improvement, and I look 
forward to working with--with you and the Committee, if 
confirmed, on that challenge.
    Senator Cornyn. Well, people understandably are skeptical 
of our perhaps most capable government agency when it comes to 
cyber, which is NSA. And so by default it seems like the 
Department of Homeland Security must assume that role as the 
intermediary between our agencies like the NSA and the private 
sector, who views with skepticism also the government's ability 
to keep information confidential when it--when there's so much 
at risk from a business standpoint, when information about 
cyber attacks, successful cyber attacks, becomes news.
    So we look forward to getting your recommendation and I 
would just encourage you. We need somebody at the Department to 
stand up and speak with clarity about what we as policymakers 
need to do to better deal with this threat, because, as I said, 
I don't think we're doing a very good job right now.
    Thank you.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank you, Mr. Glawe for being here. But first, let me 
thank your family for the service they've given to our country, 
each one of them, and for you to continue in that footstep of 
serving our great country.
    Let me ask first of all if you can tell me a little bit 
about your experience as a police officer in Houston and how 
that has shaped your service, your dedication to service, and 
being able to lead the DHS with a different perspective than 
most who have worked themselves through the ranks?
    Mr. Glawe. Senator, thank you for the question and thank 
you for meeting with me yesterday afternoon. It was a real 
pleasure, an honor, to meet you. I've spent a lot of time in 
West Virginia at our advanced training center out there and 
it's a wonderful State and a wonderful facility. And thank you 
for that opportunity to talk about that.
    As a Houston police officer, I was 22 years old when I got 
out of the academy, and I was--sorry, I had just turned 23. I 
was the youngest police officer in the department when I hit 
the streets. And I responded to people's homes on the worst day 
of their lives in an effort, hopefully, to make it a little bit 
better. So when you called 9-1-1 and you've responded for a 
call for service, it was inevitably the worst day of someone's 
life.
    And with that, it brought a sense of urgency and community, 
but also an understanding of how important intelligence is. At 
the time, I probably didn't understand the totality of it, but 
I surely do now--is we must have forward-leaning, tactical-
level intelligence to get to our operators and policymakers to 
allow the appropriate decisions to be made to mitigate those 
threats, and working with a sense of urgency.
    What I have seen throughout my 20-plus years, working up as 
an entry-level special agent in the FBI in a post-9/11 
environment, is we have tended to be a reactionary intelligence 
community. And we've tried to fix that. We've tried to be 
proactive and get ahead of the threats. But some of the 
critical nodes are we have to posture ourselves as an 
intelligence enterprise to be forward-leaning to identify the 
threats before they happen, because the worst-case scenario is 
when you have to call 9-1-1 and a uniformed police officer has 
to respond to the scene after the fact, because that will be 
the worst day usually of someone's life.
    Senator Manchin. What do you think is going to be the 
greatest--what do you think is the greatest security threat the 
United States faces?
    Mr. Glawe. Thank you Senator, for the question. The illicit 
pathways--the illicit pathways associated with cyber seem to be 
an incredible vulnerability. And I don't want to get ahead too 
much on the policy of the threat priorities that the 
Administration and the Director of National Intelligence and 
Secretary Kelly will set. But what I will say is, the illicit 
pathways that are being used in the cyber arena in encrypted 
communication, by transnational criminal organizations, by 
foreign intelligence organizations, by terrorist networks, by 
non-State actors that are--that are on the full spectrum of 
illicit activity from child exploitation, human trafficking, to 
foreign intelligence activity.
    We are at a real challenging situation now, how as 
policymakers and decision-makers, and I can share that 
intelligence to you to make good decisions on it. And I will do 
everything, and I'm committed to that, so we can keep you 
informed on that, and I look forward if confirmed to working 
with you on it.
    Senator Manchin. The TSA comes intertwined with your 
duties. Are you concerned, or do you have any concerns, with 
our TSA, our technology advancements, to be able to detect any 
type of foreign intervention, if you will? And how would you 
build the cooperation between all those nations and countries 
that have the ability to fly into our airports and use our U.S. 
facilities, and the concern that you may have with them 
bringing danger to our country?
    Mr. Glawe. Senator, thank you for the question. And if 
confirmed, I look forward to taking on that challenge, and it's 
a big challenge, the information-sharing agreements and our 
vetting processes to identify nefarious actors from any country 
in the world, that pose a threat, from any threat vector, not 
just terrorism, and again transnational criminal organizations 
as well that operate just as sophisticated as a foreign 
intelligence organization.
    But, back to your comment about aviation security, in any 
vulnerabilities we have in the aviation security arena, I don't 
think there is any question that terrorist organizations still 
view aviation as a threat vector that they want, they want to 
attack. And a nightmare scenario is having a U.S. flag or any 
fly carrier to get taken out of the sky. And it is something 
that keeps all of us up tonight, and I'm committed to working 
towards that and looking for those vulnerabilities with 
Secretary Kelly, the Committee, and intelligence community, to 
work through those threats.
    Senator Manchin. My last question will be, will you, if 
asked by the President, render your professional assessment, 
regardless if that assessment is counter to the current 
Administration's policy or viewpoint?
    Mr. Glawe. Senator, thank you for that question. 
Absolutely, I will always give my honest assessment with 
complete integrity of the intelligence process.
    Senator Manchin. Thank you. Congratulations.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    Good morning. I couldn't agree with you more on your 
priorities around cyber and transnational criminal 
organizations and, if confirmed, I look forward to working with 
you on those.
    There's been a report, and I'd just like you to give me 
your perspective on it and explanation, that while you were 
Acting Under Secretary for Intelligence and Analysis, that you 
withheld a report as it related to the President's executive 
order on what we've called the ``Muslim Ban.'' Can you give me 
your perspective on that report and what actually happened?
    Mr. Glawe. Sure. Thank you, Senator, for the opportunity to 
clarify that. So I had no involvement in the executive order 
until the day it was released, and the report that you're 
referencing there was a compilation of information that was 
going to be used in the potential, or the litigation, for the 
executive order. It was a combination of multiple intelligence 
organizations.
    The information that was contained in that report, a 
majority was placed in an intelligence product that was 
disseminated, and I authorized that dissemination shortly 
thereafter, after that information came out, through a leak 
that was in the newspaper.
    Senator Harris. Was there a reason that it was withheld 
before then?
    Mr. Glawe. It was--Senator, it was information being 
compiled in a declaration that was going to be used for the 
executive order, after it was stayed.
    Senator Harris. So it was work product? Is that----
    Mr. Glawe. Yes, Senator.
    Senator Harris. On the issue of State election 
infrastructure, you mentioned that you watched or heard part of 
the proceedings that we had in that regard. I'm concerned about 
what we heard in regard to whether or not DHS has adopted an 
adequate policy for coordinating with states. One of the 
concerns that repeatedly we heard and we have heard is that the 
states are concerned they don't have access to intelligence to 
safeguard their systems.
    And obviously, we have concerns about classified 
information and those who do not have authority receiving any 
classified information. How do you propose we could improve our 
system to give the states more information and intelligence to 
emphasize the priority they should place on concerns about 
hacks?
    Mr. Glawe. Senator, thank you for that question. And I have 
had the initial briefings from NPPD on our infrastructure to 
share information, as well as on the fusion centers. And if 
confirmed, I look forward to looking at the business enterprise 
of how we're doing business and having a sense of urgency.
    Senator, I come from a background in that arena, throughout 
my entire career, to operate with a sense of urgency, 
disseminate intelligence at any classification level to 
mitigate threats. I share your concern that we are not postured 
possibly in that arena. But if confirmed, I need to unpack and 
identify those vulnerabilities and how quickly to respond to 
them.
    Senator Harris. Can you give me examples of what you think 
might be a remedy or what a remedy would look like? And I 
appreciate the point you made earlier, which is solutions won't 
be easy.
    Mr. Glawe. Senator, I think I would have to take a stronger 
look--I'm sorry, not stronger--a more in-depth look at our 
current business structure of how that information is being 
disseminated, what infrastructure is currently in place. I'd 
like to say that the fusion centers would be a natural touch 
point for this, but I'm not sure that they're postured today to 
do that mission, especially when you're talking about 
intelligence community, high-side, TOP SECRET information that 
has to go down to SECRET or tear-line level to get it out 
there.
    And also, to echo what my predecessor Frank Taylor has 
said, getting that information in a usable form to the private 
sector is--and their vulnerabilities, which is tremendous. So 
if confirmed, Senator, I share your concerns, and I will work 
with you to work through the challenges.
    Senator Harris. And if you did not see that part of the 
testimony, I'd urge you to review the hearing that we had about 
what may be a different approach if we're talking about a 
vendor versus State officials who are elected or appointed to 
represent the State through the State government system.
    Mr. Glawe. Senator, thank you. And I did--so I see part of 
it and some of the confusion involving the legal authorities 
and disclosure. We've got to work through that. I agree with 
your frustration and I'm committed to work through it if 
confirmed.
    Senator Harris. And if confirmed, can you give this 
Committee a commitment that you will provide us with a report 
about your assessment well before the 2018 election and, if 
possible, provide us that report before the end of this year?
    Mr. Glawe. Senator, if confirmed I absolutely commit to 
that.
    Senator Harris. Thank you. I have nothing else.
    Chairman Burr. Thanks, Senator Harris.
    David, there's been a lot of discussion about the future of 
the intelligence component at DHS, how it should be structured, 
how its mission's defined, what authorities it should operate 
under, and who ultimately its customers are. Who do you view as 
the I&A's core customer?
    Mr. Glawe. Thank you, Senator, and thank you for the 
question. I have a unique perspective because I was the head of 
intelligence at U.S. Customs and Border Protection, the largest 
component of DHS, and the largest law enforcement organization 
in the United States. The customers are diverse and it's a 
challenge, because it's not necessarily an either-or. We've got 
the policymakers and then the senior Administration officials, 
which you are the senior policy officials on this from the 
legislature.
    But we have the State and locals. And we're statutorily 
mandated to share information with the State and locals. And we 
have to do that, and we have to do it well, because we're the 
only ones that are statutorily mandated to do that. But I also 
see equally is the components. DHS is a powerful, powerful 
organization, but they've had challenges getting information to 
them, intelligence high-side information, to the most critical 
components.
    And I would use Customs and Border Protection as one of 
those. They are the last line of defense for incoming foreign 
threats, and law enforcement data will not cut it alone. We 
have to--we will have to find solutions either through our 
vetting and information-sharing agreements or processes to 
ensure that they get all the information they need on the 
border to mitigate threats.
    So Senator, my apologies, I didn't quite answer with a 
singular one because DHS's mission is so important with State 
and locals, the DHS components, the private sector and 
policymakers. We have to serve them all. And I have to, if 
confirmed, come up with a business plan and process to do that 
with a sense of urgency and understanding what our customers 
need.
    Chairman Burr. Let me ask it a little different way. What 
value does I&A bring?
    Mr. Glawe. Senator, thank you. I&A's mission is robust and 
the employees are outstanding and they are dedicated and 
committed to that. Interweaving the DHS components' 
intelligence information is a critical node. They are 
statutorily charged to bring Title 50 intelligence community 
information to the components, with the exception of Coast 
Guard, which is a stand-alone intelligence function, or I.C. 
component, within DHS. And also ensuring that they are getting 
information to the State and locals.
    So I see that as also a heavy-pronged approach. What I 
would say is, if confirmed, I would bring the mission focus, 
operational focus, to ensure we're meeting our customer's need 
with a sense of urgency. And I believe I said it earlier, you 
know, having that mindset to deliver tactical-level and 
strategic intelligence, to move resources, to be adaptive, to 
mitigate threats immediately.
    The men and women of I&A are incredibly dedicated, 
incredible people, and, if confirmed, I hope to have the 
opportunity to help them with that mission.
    Chairman Burr. You've got the unique background of having 
served in a number of different capacities that touch the 
intelligence community and the product that comes out of it. 
The Committee's been concerned for some time about the analytic 
duplication that exists across government, government-wide. Do 
you share that concern, and what do you see as the analytic 
component of DHS, or should they be a customer of somebody 
else's analytic product?
    Mr. Glawe. Thank you for the question. And I have been in a 
unique position throughout my career to understand that 
challenge, especially as a terrorism agent in the FBI, and 
looking at DHS I&A's role in the terrorism space, and the 
uniqueness of the organization to provide information.
    And if confirmed, I am committed to look for the business 
process to ensure that there is not duplication, that we are at 
I&A--or if confirmed at I&A, I would find the business process 
for that unique space that they operate in, which is ensuring 
State and local private sector sharing of information both 
ways.
    But then I also--within the DHS component, the opportunity 
to enhance their missions and to integrate it within border 
security, trade, travel, aviation, and critical infrastructure 
is a real opportunity, I think. And to look at I&A and our 
processes and business process, to facilitate that mission, and 
then possibly carve out stuff that we don't need that other 
organizations are doing and doing it well. But to make sure 
we're efficient, we're using the taxpayers' dollars well, and 
at the end of the day we're mitigating the threats.
    Chairman Burr. Given the mission of your agency, as you 
look forward over the next 10 years, do you see more employees 
that are government employees or more employees that are 
contractors, based upon what you know, the skill sets that 
you're going to need to attract?
    Mr. Glawe. Senator, thank you for the question. I've seen 
incredibly dedicated contractors I've worked for in my prior 
capacity. But I believe a workforce, a continuing workforce, a 
historical workforce, with the knowledge coming up through the 
ranks, like I said I have, and also maintaining an employee 
business environment so we retain employees and we're 
competitive, is critical to DHS I&A.
    So I've seen the Committee's past reports on reducing the 
number of contractors and I'm committed to that as well, and I 
agree that we would continue to have a government workforce and 
maintaining quality employees from the entry level and having 
career progressions all the way up through the senior executive 
ranks. I think I'm a benefit of those type of career paths and 
I'd like to include that at DHS I&A if confirmed.
    Chairman Burr. Listen, I'm going to put you on the spot. In 
your view, is there any overlap in DHS's and FBI's efforts to 
counter violent extremists, as others have expressed?
    Mr. Glawe. Senator, thank you for the question. I think 
there is potential overlap there, but business solutions and 
partnerships, which I will bring with the FBI, are easy for me. 
I know the FBI well. I'm friends with them. I grew up with them 
through our management change.
    But the uniqueness of I&A, incorporating suspicious 
activity and partnering with State and local and tribal and 
private sector partners is the unique spot that I&A's in and 
can fill. Where the FBI is a case-driven, investigative-driven, 
organization, DHS I&A is not. And my job in I&A is to ensure 
the information and the intelligence is shared on those types 
of threats. And I think we have an opportunity, in partnership 
with the FBI and our local partners, in that threat space.
    Chairman Burr. I&A is such a small piece of DHS. Do you 
have any concerns about getting lost relative to the 
Secretary's view of what I&A is or should be or can be?
    Mr. Glawe. Senator, I do. I think the critical thing is 
scoping the mission with having the mid-level and entry-level 
managers understanding our mission directly, so we are focused 
on the main mission of keeping the homeland safe. We can't be 
everything to everyone, and that could cause challenges. So the 
scoping in the business plan in my opinion, if confirmed, is 
going to be the critical aspects of I&A moving out on a 
mission-oriented integrated approach.
    Chairman Burr. I encourage you to make sure that I&A is a 
full partner in the enterprise there, versus just the agency 
you turn to when there is an ``oh blank'' moment.
    I'm going to turn to the Vice Chairman.
    Vice Chairman Warner. I appreciate your comments. and I 
just want to follow up on what I raised and Senator Harris 
raised. I was surprised last week when we had the head of all 
the association of secretaries of state, who basically viewed 
that the designation of our electoral system as critical 
infrastructure, she felt that was a burden rather than an 
asset. And this--again, not sure this will exactly fall within 
your purview, but I wanted to just reemphasize that something 
is wrong with our system if we have information and we feel 
like our top State election officials are not cleared at an 
appropriate security clearance level, to actually get briefed 
on that information.
    And again, I think we missed--dodged a bullet in 2016 
because none of the systems were penetrated to a level that 
affected. But if there's one word that we've heard from the 
I.C., it's that the Russians will be back. And I would hope 
we'd get to a point where if you are designated critical 
infrastructure, you felt that that was a net positive to your 
institution and DHS was providing both asset support and 
information-sharing in a way that--that, again, make sure that 
our most critical component of our democratic process, our 
voting systems, are appropriately protected.
    And again, I hope you'll think through that. I know it's 
kind of a new area, and I appreciated the comments from DHS 
last week. But this is something we've got to get to with a 
real sense of urgency, immediately.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    David, I want to thank you again for, one, your service to 
the country, and your family's service to the country.
    Senator Manchin. Mr. Chairman.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Is it possible just to follow up on one 
question?
    Chairman Burr. The Senator is recognized.
    Senator Manchin. Thank you very much.
    David, what have we learned since 9/11? You know, I 
understood that we had a lot of--a lot of the intelligence 
community was warned. We had a lot of chatter going on. We 
knew, but it doesn't look like anybody was coordinating or 
talking to anybody at all. But everyone was concerned about 
that. In your evaluation, I'm sure, in taking on this role 
you're going to be taking on, what do you think that maybe you 
have learned, or we have learned, or we should have learned? 
And how can you make sure that doesn't repeat itself?
    Because you're going to be sharing this all the way down to 
the level you started at. Now you're at the top of the food 
chain and you know what it's like down there. That's where it's 
got to be stopped. I've read all the reports on 9/11. It really 
shouldn't have happened.
    Mr. Glawe. Senator, thank you for that question. And I've 
thought about that for many years. And coming up through the 
entry-level ranks and serving with some very elite intelligence 
and operational squads and teams, the one thing I've learned is 
a mission-integrated, operationally focused approach, and 
empowering your leaders, empowering your mid- and lower-level 
managers and staff, with commander's intent, with an 
operational mindset that all threats must be mitigated. You 
don't go home at the end at the end of the night until those 
threats are mitigated, and you share intelligence, you--you do 
everything you can within the legal bounds of sharing 
information with each other.
    And when you do recognize stovepipes or vulnerabilities, 
raise them up immediately. You can't sit on them.
    I was fortunate enough early on in my career to have been 
the lead on the Al-Shabaab threat in the homeland at a very 
entry level, very entry level. And some incredible leaders that 
I worked for allowed me to develop a program in the homeland to 
mitigate that threat. And that also involved overseas partners, 
foreign partners, Department of Defense, and the intelligence 
organizations.
    I've taken that to heart on how I view--how I view every 
day I go to work is on mitigating threats. So integrating 
intelligence and operations and clear and direct information 
lines to policymakers. So as threats are emerging and we need 
to change, we change together as a team, because I view this is 
a one team, one fight, government approach. It doesn't matter 
what side of the aisle you're on. It's about keeping the 
country safe. I'm committed to that if confirmed, and I'll 
always be committed to that.
    Chairman Burr. David, again I would thank you, you for your 
service, your family for your service--their service, and, more 
importantly, for your willingness to fill this role that the 
President's asked you to do. It's incredible. I've enjoyed your 
lovely children, and if I didn't have a 15-month-old 
granddaughter I'd be taking Alexis home with me today.
    [Laughter.]
    David, it's the Vice Chair's and my intent to move your 
nomination as rapidly as we possibly can. As you know, there's 
a great likelihood that we will adjourn for the Fourth of July 
week tomorrow. I can assure you, if there's any way to get this 
process moving forward before we leave, we'll try to do that. 
Mark and I will talk. If not, we'll do it as quickly as we get 
back. It's my hope that we can get you permanently placed no 
later than the July timeframe.
    My one reminder to you is that DHS has many bosses from a 
standpoint of policy; you have one and it's this Committee. And 
the intelligence that you process through the I&A is of great 
interest to us. I want to go back to this duplication thing, 
just very briefly, because, having served in the multiple 
capacities that you have, I think you can understand my 
frustration when I sit down in the morning and I go through my 
intelligence reports from overnight and I find a report that I 
read from five different areas and at the bottom of it the core 
source was the same product.
    It really makes me wonder why we need five different 
interpretations of the same core product, and if that core 
product is as important as I think it is, why isn't everybody 
turning to them, versus trying to re-create the wheel with 
every turn. So I hope you'll remember that as you serve out 
this term at I&A because I really think we've got to refine 
what we do and how we do it from an intelligence standpoint.
    The rest of the world's changing, and they don't have the 
rules and they don't have the history to encumber them like we 
do in the United States. We've got to figure out how to get the 
history out of the way, but the rules are going to stay. And, 
we will be very aggressive from our standpoint and of our 
oversight, of you and of the organization.
    With that, this hearing is adjourned.
    [Whereupon, at 9:24 a.m., the hearing was adjourned.]

                         Supplemental Material
                         
                         
                         
                         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                        
                          
                         
   

                                  [all]




</pre></body></html>
